           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement–                         Date:       September 25, 2013
           The Effectiveness of DOT’s Earned Value
           Management Practices
           Project Number: 13F3015F000


  From:    Louis C. King                                            Reply to    JA-20
                                                                    Attn. of:
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Chief Information Officer

           For fiscal year 2013, DOT requested $2.2 billion for 44 major IT investments. The
           Department uses earned value management (EVM)—implemented in 2008—for its
           major IT investments. EVM is a management approach that provides objective reports
           of project status, produces early warning signs of schedule delays and cost overruns,
           and provides unbiased estimates of a program’s total costs.

           OIG has contracted with KPMG LLP, an independent public accounting firm, to
           perform an audit of DOT’s EVM practices, subject to OIG’s oversight. The audit
           objectives are to determine whether the Department: (1) has implemented effective
           EVM policies, procedures and practices for its IT investments; and (2) uses accurate
           EVM data to plan, monitor, and report the status of its IT investments and related
           security spending.

           KPMG’s auditors will begin this review in September 2013, and conduct it at selected
           DOT operating administrations in Washington, D.C. We will contact your audit liaison
           to schedule an entrance conference. If you have questions, please call me at
           (202) 366-1407, or Nathan Custer, Program Director, at (202) 366-5540.

                                                     #
           cc: CIO Council Members
               DOT Audit Liaison, M-1
